No. 19-276
In the

Supreme Court of the United States

JOSE LUIS GARZA, et al.,
Petitioners,
v.
CITY OF DONNA,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

BRIEF IN OPPOSITION

J. A rnold Aguilar
Counsel of Record
Aguilar & Zabarte, LLC
990 Marine Drive
Brownsville, Texas 78520
(956) 504-1100
arnold@aguilarzabartellc.com
Counsel for Respondent

292204

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

Whether a city police chief’s instruction to
install two signs, without evidence of deliberate
indifference to Fourteenth Amendment rights in
that instruction, can establish a custom or policy of a
City to promote “vigilante-style” policing actionable
under 42 U.S.C. § 1983?

2.

Whether a claim under 42 U.S.C. § 1983 alleging
a municipal policy of “vigilante-style” policing
can establish a fact issue without evidence that
such policy was the moving force of a detainee’s
injuries caused by “vigilante-style” actions of the
municipality’s officials?

ii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
I.

Factual Background  . . . . . . . . . . . . . . . . . . . . . . . 3

II. Proceedings below . . . . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR DENYING THE PETITION  . . . . . . 9
Petitioners’ attribution of hostility to an
instruction to install two signs, w ithout
more, could not overcome their failure to
identify evidence of a deliberately indifferent
custom or policy to promote “vigilantestyle” policing that was the moving force of
injuries caused by “vigilante-style” actions  . . . . . . . 9
I.

An instruction to install two signs, without
more, could not establish a deliberately
indifferent custom or policy to promote
“vigilante-style” policing actionable under
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
Table of Contents
Page
II. Petitioners could not establish liability
of the City without evidence that a City
policy was the cause or moving force
of a constitutional violation of the type
authorized through that policy . . . . . . . . . . . . . . 15
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 106 S. Ct. 2505,
91 L. Ed. 2d 202 (1986) . . . . . . . . . . . . . . . . . . . . .  12-13
Bd. of County Comm’rs of Bryan County, Okla.
v. Brown,
520 U.S. 397, 117 S. Ct. 1382,
137 L. Ed. 2d 626 (1997) . . . . . . . . . . . . . . . . . . . passim
Beard v. Banks,
548 U.S. 521, 126 S. Ct. 2572,
165 L. Ed. 2d 697 (2006) . . . . . . . . . . . . . . . . . . . . . . . 13
Belcher v. Oliver,
898 F.2d 32 (4th Cir. 1990) . . . . . . . . . . . . . . . . . . . . . 12
Burns v. Galveston,
905 F.2d 100 (5th Cir. 1990) . . . . . . . . . . . . . . . . . . . . 12
City of Canton v. Harris,
489 U.S. 378, 109 S. Ct. 1197,
103 L. Ed. 2d 412 (1989) . . . . . . . . . . . . . . . . . . . .  10, 15
City of L.A. v. Heller,
475 U.S. 796, 106 S. Ct. 1571,
89 L. Ed. 2d 806 (1986) . . . . . . . . . . . . . . . . . . . . . . . .  17
City of St. Louis v. Praprotnik,
485 U.S. 112, 108 S. Ct. 915,
92499 L. Ed. 2d 107 (1988) . . . . . . . . . . . . . . . . . . . .  7-8

v
Cited Authorities
Page
Collins v. City of Harker Heights,
503 U.S. 115, 112 S. Ct. 1061,
117 L. Ed. 2d 261 (1992) . . . . . . . . . . . . . . . . . . . . . . . 15
Comstock v. McCrary,
273 F.3d 693 (6th Cir. 2001) . . . . . . . . . . . . . . . . . . . . 12
Connick v. Thompson,
563 U.S. 51, 131 S. Ct. 1350,
179 L. Ed. 2d 417 (2011)  . . . . . . . . . . . . . . . . . . . .  10, 11
Coon v. Ledbetter,
780 F.2d 1158 (5th Cir. 1986) . . . . . . . . . . . . . . . . . . . 14
Cty. of Sacramento v. Lewis,
523 U.S. 833, 118 S. Ct. 1708,
140 L. Ed. 2d 1043 (1998) . . . . . . . . . . . . . . . . . . . . . . 11
Deshaney v. Winnebago Cty. Dep’t of Soc. Servs.,
489 U.S. 189, 109 S. Ct. 998,
103 L. Ed. 2d 249 (1989) . . . . . . . . . . . . . . . . . . . . . . . 12
Farmer v. Brennan,
511 U.S. 825, 114 S. Ct. 1970,
128 L. Ed. 2d 811 (1994) . . . . . . . . . . . . . . . . . . . . . . . 11
Kingsley v. Hendrickson,
135 S. Ct. 2466, 192 L. Ed. 2d 416 (2015) . . . . . . . 16-17

vi
Cited Authorities
Page
Matsushita Elec. Industrial Co. v.
Zenith Radio Corp.,
475 U.S. 574, 106 S. Ct. 1348,
89 L. Ed. 2d 538 (1986) . . . . . . . . . . . . . . . . . . . . . . . . 13
Monell v. New York City Dep’t of Social Servs.,
436 U.S. 658, 98 S. Ct. 2018,
56 L. Ed. 2d 611 (1978) . . . . . . . . . . . . . . . . . .  10, 15, 16
Okla. City v. Tuttle,
471 U.S. 808, 105 S. Ct. 2427,
85 L. Ed. 2d 791 (1985) . . . . . . . . . . . . . . . . . . . . . . . . 16
Pembaur v. Cincinnati,
475 U.S. 469, 106 S. Ct. 1292,
89 L. Ed. 2d 452 (1986) . . . . . . . . . . . . . . . . . . . . . . . . 10
Salazar-Limon v. City of Hous.,
137 S. Ct. 1277, 197 L. Ed. 2d 751 (2017) . . . . . . . . . 15
Taylor v. Barkes,
135 S. Ct. 2042, 192 L. Ed. 2d 78 (2015) . . . . . . . . . . 12
Tittle v. Jefferson Cty. Comm’n,
10 F.3d 1535 (11th Cir. 1994)  . . . . . . . . . . . . . . . . . . . 12
Tolan v. Cotton,
572 U.S. 650, 134 S. Ct. 1861,
188 L. Ed. 2d 895 (2014) . . . . . . . . . . . . . . . . . . . . . . . 14

vii
Cited Authorities
Page
Youngberg v. Romeo,
457 U.S. 307, 102 S. Ct. 2452,
73 L. Ed. 2d 28 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . 12
Statutes and Other Authorities
U.S. Const. Amend. XIV . . . . . . . . . . . . . . . . . . . . . passim
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 56 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12, 13

1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment provides that “[n]o State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty,
or property, without due process of law….” U.S. Const.
amend. XIV, § 1. The Civil Rights Act provides that
““[e]very person who, under color of any statute, ordinance,
regulation, custom, or usage, of any State … subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity, or other
proper proceeding for redress….” 42 U.S.C.S. § 1983.
STATEMENT OF THE CASE
This case involves the suicide of Jose Luis Garza, Jr.
(“Garza”) while he was detained at the Donna’s temporary
holding facility, or jail, after his mother called the Donna
Police Department (“DPD”) to remove him from her
house because he was heavily intoxicated and arguing
with his brother. Pet. App. 2. Garza was arrested and
placed in a jail cell, but was later found hanging in that
jail cell, approximately thirty-nine minutes after last
having been checked. Id., at 3-4. Among other claims,
Petitioners pursued a Fourteenth Amendment due process
allegation of an episodic act or omission by jail officials
that violated Garza’s rights, arguing that the city had
a policy of detainee mistreatment, established through
DPD police chief Ruben De Leon’s instruction to install
two signs. Id., at 3-5, 38-39.

2
Petitioners do not contend the City’s officers passively
ignored or failed to pay closer attention to Garza, but
rather that he was injured as a result of an official policy of
active vigilante-style policing and detainee mistreatment.
Petitioners did not identify evidence to establish the
City adopted a deliberately indifferent policy of active
detainee mistreatment that was allegedly reflected in
the signs, or how that policy caused or was the moving
force of his suicide, however. Although Petitioners never
specified whether they complained of the conditions of
Garza’s confinement or an episodic act or omission, their
vitriol appeared to be directed to officers’ allegedly
deliberate actions. Without evidence of a custom or policy
of intentional disregard for the rights of Garza to protect
him from suicidal tendencies, however, reference to the
signs, even with Petitioners’ post hoc attribution of hostile
intent in those signs, was too nebulous to constitute an
official policy of the City to encourage active detainee
mistreatment that was a moving force of Garza’s suicide or
a failure to intervene to prevent that suicide. Id., at 16-17.
The court of appeals did not overlook Petitioners’
contention that the two signs reflected a policy of active
detainee mistreatment. Id., at 8. But Petitioners did
not identify evidence to establish those signs reflected
a policy of vigilante-style policing or that such a policy
was the moving force that somehow caused Garza’s
suicide or prevented the officers from intervening to
prevent that suicide. Petitioners’ reference to the police
chief’s instruction to install two signs, with nothing
more, could not establish a deliberate choice of the City’s
final policymaker to disregard the needs of detainees,
necessary to establish an unconstitutional policy of the
City. Id., at 19. The existence of those signs did not present

3
a question of fact because the chief’s instruction to install
the signs, without more, was too inexact and nebulous to
establish municipal policy or the moving force of Garza’s
suicide.
I.

Factual Background

On February 19, 2016, Garza’s mother, Veronica Garza,
called Donna Police Officers to her residence because Garza
was heavily intoxicated and arguing with his brother, Gilbert
Garza. Pet. App. 2. In fact, a subsequent autopsy report
found ethanol and Alprazolam in Garza’s body. Id., at 33.
Mrs. Garza called the police after Garza looked like he was
ready to get in a fight with Gilbert and she was concerned
one of them would get hurt. Mrs. Garza also reported to
investigating officer Mario Silva that she “feared for his life”
and was “afraid of him hurting himself,” but she was not
aware he ever told anyone he might commit suicide. Id., at 2;
24. Silva thereupon arrested Garza for assault by threat
and transported him to the DPD’s “short-term holding
facility where—unlike a county jail or state prison—
detainees do not stay long.” Id., at 2.
Once Garza was arrested, Officer Silva no longer
believed he was a danger to himself or anyone else. By
that time, Garza’s “demeanor was ‘okay,’ and [he and
Silva] “even had a couple of laughs,” … there was ‘[n]o
indication [Garza] wanted to harm himself” … [and] Silva
did not believe [Garza] would harm himself. Id., at 24-25.
Garza was then booked and placed in a cell at 6:05 a.m.,
though no particular mental-health precautions were
taken prior to placing him in the cell. Id., at 2; 25. While
the City does not require a suicide screening for arrestees,
if an arresting officer sees that an arrestee needs medical or

4
mental assistance, that officer must seek medical or mental
screening assistance. Id., at 25.
When Jailer Esteban Garza arrived at the DPD at
8:00 a.m., he learned Garza (a friend he had known from
elementary and high school) was being held, and at 8:10
a.m. checked on his well-being, though the cell-check was
not recorded contemporaneously. Id., at 3; 29. After that,
Jailers Garza and Nathan Coronado worked on signs that
DPD police chief Ruben De Leon directed them to put up
in the jail. One read “Welcome to Donna Hilton,” and the
other was a decal of a comic-book character, the Punisher,
known for carrying out vigilante justice. Id., at 3. While
the officers were working on the signs, Garza hung himself
from the bars of his jail cell. There was no evidence that
the jailers heard Garza say or do anything during this
time, however. After agents from U.S. Immigration
and Customs Enforcement (“ICE”) arrived to check the
immigration status of any detainees, they found Garza
hanging from his jail cell door with his shirt at 8:49 a.m.,
though it was unclear how long he had been hanging, and
they immediately called out for assistance. Id., at 3-4; 30;
32. Petitioners’ allegation of a request to preserve footage
of Garza being booked into custody was not supported by
any evidence.
Immediately upon hearing the ICE Agents call for help
(seven seconds after the Agents had entered the jail area),
Jailers Garza and Coronado ran into the jail area to assist.
Fifty-five seconds later, the jailers and ICE agents pulled
Garza’s body into the booking room, closer to the Jail exit, and
called for medical assistance. Supervisory officers arrived
thirty seconds later and began CPR sixteen seconds after
that. During this time, Jailer Garza was in “shock” seeing

5
his friend’s limp body. Once emergency medical help arrived,
Garza was transported to the hospital, though there was
some confusion about what had happened, and the medical
personnel lacked some information to relay to hospital staff
upon arrival. Id., at 4; 30-31.
Dispatcher Minerva Perez had been tasked with
monitoring the jails camera feeds under the jail’s written
policy, along with answering emergency 911 calls and
handling other duties. She understood that once jailers
arrived, however, it was their responsibility to monitor
the detainees. Id., at 2-3; 26. From 8:09:50 a.m. to 8:57:31
a.m., she received approximately twenty 911 calls and did
not recognize that Garza had obscured the camera lens in
his jail cell with wet paper towels sometime between 8:30
a.m. and 8:49 a.m., possibly because the layout of her office
was such that she could not take 911 calls and monitor
the video feeds at the same time. Id., at 26-28; 32. After
Garza was found hanging, she called EMS at the request
of a jailer. Id., at 28. Petitioners’ allegation that she was
“drunken” was not supported by any evidence.
Though Petitioners interpreted the “Donna Hilton”
sign as a reference to the notorious Vietnam POW camp
known as the “Hanoi Hilton,” DPD Chief De Leon
explained that his purpose for the “Donna Hilton” sign
was to remind jailers and staff that their duties were
to serve. He also referred to the people who come in as
customers rather than prisoners. Id., at 7. No evidence was
presented to support a different purpose, and he denied
requesting the “Punisher” decal. Id., at 56. Regardless,
he was not aware Garza was at the jail that morning, and
he did not instruct the jailers to disregard Garza in favor
of installing the signs. During the jail’s forty-five year

6
existence, no one had previously committed suicide. Id.,
at 70.
II. Proceedings below
Petitioners alleged the City of Donna violated Garza’s
Fourteenth Amendment right to due process, pursuant
to 42 U.S.C. § 1983, arising out of his February 19, 2016,
custodial suicide at the City’s detention facility. Pet. App. 2.
They initially sought to establish the City’s liability through
five circumstances: (1) officer Silva’s booking Garza into
the jail; (2) dispatcher Perez’ monitoring of Garza’s cell; (3)
jailers Garza’s and Coronado’s failure to discover Garza’s
suicide; (4) supervisory officers Rosas’ and Suarez’ failure
to relate information to EMT Tafolla; and (5) police chief
De Leon’s instructions to install the “Donna Hilton” and
“Punisher” signs. Id., at 4-5. The district court rejected
each basis for municipal liability and granted the City’s
motion for summary judgment. Id., at 5; 73. The district
court recognized Petitioners’ contention that the signs
“indicate[d] a general mistreatment of detainees,” but
found that emphasis misplaced because there was “no
concrete causal relationship between [the signs] and
[Garza’s] death” and Petitioners failed “to specify the
exact type of mistreatment supposedly behind [Garza’s]
death.” Id., at 71-72.
The court of appeals affirmed the judgment of the
district court, concluding that Petitioners had not identified
evidence of any city officials’ actions that might reasonably be
attributed to the City. Id., at 19-20. The court recognized
initially that the Fourteenth Amendment provides pretrial
detainees with the right to medical care and protection
from known suicidal tendencies, explaining that the

7
denial of such rights may be attacked as a condition of
confinement (“general conditions, practices, rules, or
restrictions of pretrial confinement”) or as an episodic
act or omission (in which “the complained-of harm is a
particular act or omission of one or more officials, and
an actor usually is interposed between the detainee and
the municipality”). Id., at 6. The court of appeals rejected
Petitioners conditions of confinement claim, to the extent
such a claim was intended. Id., at 9. A conditions theory
generally “concern[s] durable restraints or impositions
on inmates’ lives like overcrowding, deprivation of phone
or mail privileges, the use of disciplinary segregation, or
excessive heat.” Id. Petitioners did not complain of such
a continuous burden on inmate life in such a manner and
do not appear to pursue such a claim before this court.
The Fifth Circuit panel explained that “[t]o establish
municipal liability in an episodic-act case, a plaintiff
must show (1) that the municipal employee violated the
pretrial detainee’s clearly established constitutional
rights with subjective deliberate indifference; and
(2) that this violation resulted from a municipal policy or
custom adopted and maintained with objective deliberate
indifference.” Id. Deliberate indifference requires that
“the official knows of and disregards an excessive risk
to inmate safety.” Id., at 14. Policy could be in the form
of written policy statements, ordinances, regulations,
or “a widespread practice that is so common and wellsettled as to constitute a custom that fairly represents
municipal policy,” including a decision to adopt a course of
action for a particular situation if made by an authorized
decisionmaker. Id., at 16. See Bd. of County Comm’rs of
Bryan County, Okla. v. Brown, 520 U.S. 397, 403-04, 117
S. Ct. 1382, 1388, 137 L. Ed. 2d 626 (1997); City of St.

8
Louis v. Praprotnik, 485 U.S. 112, 123, 108 S. Ct. 915,
92499 L. Ed. 2d 107 (1988). Petitioners were also required
to establish the policy or custom was the moving force
for any episodic acts or omissions of DPD employees. Id.
Petitioners did not attribute officer Silva’s booking
Garza into the jail or supervisory officers Rosas’ and Suarez’
failure to relate information to EMT Tafolla to any policy
or custom of the City. Even assuming DPD police chief
De Leon was a final policymaker for the City, Petitioners’
reference to the signs as announcing an official policy of
detainee mistreatment was “too general or inexact … to
constitute the sort of specific directive required for municipal
liability, and … too nebulous to constitute a moving force,” to
attribute any “episodic acts or omissions of these employees
… to the City.” Id., at 17. The record was similarly
inadequate to establish any deliberate indifference in the
training of dispatcher Perez, either through “a pattern of
constitutional violations or … a single incident with proof
of the possibility of recurring situations that present an
obvious potential for violation of constitutional rights.”
Id., at 18.
While Jailers Garza’s and Coronado’s preoccupation
with installing the signs, to the detriment of their job
duties, could be attributed to De Leon’s directive to install
the signs, that directive did not involve a “deliberate
choice to follow a course of action … made from among
various alternatives… with respect to the subject matter
in question.” Id., at 19 (emphasis in original). Because
De Leon was not aware Garza was in the jail, “much less
that he instructed the jailers to disregard Garza in favor
of installing the signs,” his directive could not have been
deliberate in the sense meant by the Court necessary to
support municipal liability. Id.

9
REASONS FOR DENYING THE PETITION
Petitioners’ attribution of hostility to an instruction
to install two signs, without more, could not overcome
their failure to identify evidence of a deliberately
indifferent custom or policy to promote “vigilantestyle” policing that was the moving force of injuries
caused by “vigilante-style” actions.
A sign, decal, bumper sticker, pin, cap, clothing design,
or other such item, without more, does not establish a
deliberately indifferent custom or policy to violate a
detainees’ constitutional rights. Likewise, a message on a
sign will not support a § 1983 claim absent a causal nexus
between the message and injuries resulting from actions
of the type allegedly promoted in that message. The court
of appeals therefore did not decide an important question
of federal law that conflicts with relevant decisions of this
Court, or that has not been or should be settled by this
Court, it has not departed from the accepted and usual
course of judicial proceedings, and its decision is not in
conflict with another United States court of appeals on
any matter raised. Review should be denied.
Petitioners sought to establish a Four teenth
Amendment due process claim alleging an episodic act
or omission by jail officials that violated Garza’s rights. An
episodic act or omissions case is one in which a detainee
complains first of a particular act or omission by an
actor and then points derivatively to a policy, custom
or rule of the municipality that permitted or caused the
act or omission. Pet. App. 66-67. To establish that claim,
Petitioners were required to identify a custom or policy of
the City that was deliberately indifferent to Garza’s rights
and which was a moving force that caused the violation of

10
those rights. Connick v. Thompson, 563 U.S. 51, 60-61, 131
S. Ct. 1350, 1359, 179 L. Ed. 2d 417 (2011); City of Canton
v. Harris, 489 U.S. 378, 388-89, 109 S. Ct. 1197, 1205, 103
L. Ed. 2d 412 (1989). They failed to identify evidence to
establish a question of fact to avoid dismissal on that basis.
I.

An instruction to install two signs, without more,
could not establish a deliberately indifferent
custom or policy to promote “vigilante-style”
policing actionable under 42 U.S.C. § 1983.

“[Municipalities] can be sued directly under §1983
for monetary, declaratory or injunctive relief where...the
action that is alleged to be unconstitutional implements
or executes a policy statement, ordinance, regulation,
or decision officially adopted and promulgated by that
body’s officers.” Monell v. New York City Dep’t of Social
Servs., 436 U.S. 658, 690, 98 S. Ct. 2018, 2036, 56 L. Ed.
2d 611 (1978). “[M]unicipal liability under §1983 attaches
where—and only where—a deliberate choice to follow a
course of action is made from among various alternatives
by the official or officials responsible for establishing final
policy with respect to the subject matter in question.”
Pembaur v. Cincinnati, 475 U.S. 469, 483-84, 106 S. Ct.
1292, 89 L.Ed.2d 452 (1986). “Where a claim of municipal
liability rests on a single decision, not itself representing a
violation of federal right and not directing such violation,
the danger that a municipality will be held liable without
fault is high.” Brown, 520 U.S. at 408. Simply alleging
Garza suffered a deprivation of his constitutional rights
will not permit an inference of culpability or causation. Id.
To hold the City liable, Petitioners were required to
establish the state-of-mind of the municipality’s legislative

11
body or an authorized decision-maker to prove the
underlying violation. Id., 520 U.S. at 405. The necessary
state-of-mind for liability against the City is deliberate
indifference. Id., 520 U.S. at 407. “[A] plaintiff seeking to
establish municipal liability on the theory that a facially
lawful municipal action has led an employee to violate a
plaintiff’s rights must demonstrate that the municipal
action was taken with ‘deliberate indifference’ as to its
known or obvious consequences.” Id. See also Connick,
563 U.S. at 71 (requiring notice of “highly predictable”
consequences to establish conscious disregard for rights).
“‘[D]eliberate indifference’ is a stringent standard of
fault, requiring proof that a municipal actor disregarded
a known or obvious consequence to his action.” Brown,
520 U.S. at 410. The complained-of conduct must “shock
the conscience.” Cty. of Sacramento v. Lewis, 523 U.S.
833, 855, 118 S. Ct. 1708, 1721, 140 L. Ed. 2d 1043 (1998).
The Court has long required that for liability to attach
“the official [must] know[] of and disregard[] an excessive
risk to inmate health or safety; the official must both be
aware of facts from which the inference could be drawn
that a substantial risk of serious harm exists, and he must
also draw the inference.” Farmer v. Brennan, 511 U.S.
825, 837, 114 S. Ct. 1970, 128 L. Ed. 2d 811 (1994). Even if
a City official is aware of facts from which a serious risk
of harm could be inferred, the official must actually draw
that inference. Negligence alone is not enough. Neither
negligence nor gross negligence is sufficient to establish
municipal liability for action taken with deliberate
indifference; the standard is higher. Brown, 520 U.S. at
407. None of the staff at the DPD was subjectively aware of
a substantial risk of serious harm to Decedent, and if one
existed, the staff did not draw that inference. Pet. App. 10,

12
n.4. Because no one had previously committed suicide at
the jail during its forty-five year existence, the lack of any
prior experience in dealing with a jail death supports the
lack of deliberate indifference. Id., at 70.
Although the Constitution requires the government
to provide for “medical care[] and reasonable safety”
in a custodial setting because of the limitations on the
individual’s ability to meet his own needs, that duty is
limited. Deshaney v. Winnebago Cty. Dep’t of Soc. Servs.,
489 U.S. 189, 200, 109 S. Ct. 998, 1005, 103 L. Ed. 2d 249
(1989). “[E]ven then a State necessarily has considerable
discretion in determining the nature and scope of its
responsibilities.” Youngberg v. Romeo, 457 U.S. 307, 317,
102 S. Ct. 2452, 2459, 73 L. Ed. 2d 28 (1982). Thus far,
however, “[n]o decision of this Court establishes a right to
the proper implementation of adequate suicide prevention
protocols. No decision of this Court even discusses suicide
screening or prevention protocols … [and] the weight of
that authority… suggest[s] that such a right [does] not
exist.” Taylor v. Barkes, 135 S. Ct. 2042, 2044, 192 L. Ed.
2d 78 (2015) (per curiam), citing Comstock v. McCrary,
273 F. 3d 693, 702 (6th Cir. 2001); Tittle v. Jefferson Cty.
Comm’n, 10 F. 3d 1535, 1540 (11th Cir. 1994); Burns v.
Galveston, 905 F. 2d 100, 104 (5th Cir. 1990); Belcher v.
Oliver, 898 F. 2d 32, 34-35 (4th Cir. 1990).
Rule 56(a) provides that a district court “shall grant
summary judgment if the movant shows that there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” “[W]hen a
properly supported motion for summary judgment is
made, the adverse party ‘must set forth specific facts
showing that there is a genuine issue for trial.’” Anderson

13
v. Liberty Lobby, Inc., 477 U.S. 242, 250, 106 S. Ct. 2505,
2511, 91 L. Ed. 2d 202 (1986), quoting prior version of
FED. R. CIV. P. 56(e) (currently, “[i]f a party fails to
properly support an assertion of fact … the court may …
grant summary judgment if the motion and supporting
materials … show that the movant is entitled to it”). “If
the evidence is merely colorable, … or is not significantly
probative, … summary judgment may be granted. Id., at
249-50. “When the moving party has carried its burden
under Rule 56(c), its opponent must do more than simply
show that there is some metaphysical doubt as to the
material facts. … Where the record taken as a whole could
not lead a rational trier of fact to find for the nonmoving
party, there is no ‘genuine issue for trial.’” Matsushita
Elec. Industrial Co. v. Zenith Radio Corp., 475 U.S. 574,
586-587, 106 S. Ct. 1348, 89 L. Ed. 2d 538 (1986) (citation
omitted). Courts
must distinguish between evidence of disputed
facts and disputed matters of professional
judgment. In respect to the latter, our inferences
must accord deference to the views of prison
authorities. Unless a prisoner can point to
sufficient evidence regarding such issues of
judgment to allow him to prevail on the merits,
he cannot prevail at the summary judgment
stage.
Beard v. Banks, 548 U.S. 521, 530, 126 S. Ct. 2572, 2578,
165 L. Ed. 2d 697 (2006) (citation omitted) (plurality
opinion).
Petitioners identified no evidence to support their
allegation that the City, or DPD chief De Leon, adopted
the incendiary or hostile purpose they attribute to the

14
signs with “‘deliberate indifference’ as to its known
or obvious consequences.” Brown, 520 U.S. at 407. To
the contrary, De Leon explained the purpose for the
“Donna Hilton” sign was to remind jailers and staff that
their duties were to serve the detainees. Pet. App. at 7.
Petitioners’ attribution of a hostile intent to De Leon’s
request for two signs, without more, therefore did not
identify evidence of a custom or policy of the City that was
deliberately indifferent to Garza’s constitutional rights or that
the City “disregarded a known or obvious consequence to
[its] action.” Brown, 520 U.S. at 410, 117 S. Ct. at 1391.
Cf. Tolan v. Cotton, 572 U.S. 650, 657-58, 134 S. Ct. 1861,
1867, 188 L. Ed. 2d 895 (2014) (fact issues remained as to
whether evidence established porch light was decorative
or illuminating, whether suspect’s mother at the scene
was “very agitated,” whether comments were “verbally
threatening the officer” or a plea not to continue an assault
on his mother, and whether suspect was on his knees or in
a “charging position” when the officer shot him).
Incendiary arguments or allegations, w ithout
evidence that such matters were considered by the
relevant actors, can not serve to attribute that intent to
the actors. The mere existence of the signs, even with
Petitioners’ incendiary interpretations of the signs, were
“too nebulous to amount to an official rule or restriction”
and “too general and inexact … to constitute the sort of
specific directive required for municipal liability” or to
constitute a moving force that caused his suicide. Pet. App.
9; 17. That finding was in line with the only case cited by
Petitioners. See Coon v. Ledbetter, 780 F.2d 1158, 1161
(5th Cir. 1986) (“Sheriff Ledbetter denied that [plaintiffs’
proffered] meaning [to a statement he made] was either
intended or in context was so understood. This denial

15
was not rebutted by contrary evidence, and it follows that
Jackson County could not be held liable on the basis of the
sheriff’s statement.”).
Petitioners contend that a jury could have reasonably
inferred that the signs reflected a policy of “vigilantestyle policing” without evidence that such a policy was
ever considered. “[T]his Court does not typically grant a
petition for a writ of certiorari to review a factual question
of this sort….” Salazar-Limon v. City of Hous., 137 S.
Ct. 1277, 1277-78, 197 L. Ed. 2d 751 (2017) (per curiam)
(Alito, J., concurring). Petitioners did not identify any failure
to apply a governing legal rule in either of the courts below.
To the contrary, “it is clear that the lower courts acted
responsibly and attempted faithfully to apply the correct
legal rule to what is at best a marginal set of facts.” Id.,
at 1278.
II. Petitioners could not establish liability of the City
without evidence that a City policy was the cause
or moving force of a constitutional violation of the
type authorized through that policy.
The “first inquiry in any case alleging municipal
liability under § 1983 is the question whether there is a
direct causal link between a municipal policy or custom
and the alleged constitutional deprivation.” Collins v.
City of Harker Heights, 503 U.S. 115, 123, 112 S. Ct. 1061,
1067, 117 L. Ed. 261 (1992), quoting City of Canton, 489
U.S. at 385. “[A] municipality can be liable under § 1983
only where its policies are the ‘moving force [behind]
the constitutional violation.’” City of Canton, 489 U.S.
at 389, quoting Monell, 436 U.S. at 694. Municipalities
may not be held liable “unless action pursuant to official

16
municipal policy of some nature caused the constitutional
tort.” Monell, 436 U.S. at 691 (emphasis added). “That
is, a plaintiff must show that the municipal action was
taken with the requisite degree of culpability and must
demonstrate a direct causal link between the municipal
action and the deprivation of federal rights.” Brown,
520 U.S. at 404. “There must at least be an affirmative
link between the (policy) alleged, and the particular
constitutional violation at issue.” Okla. City v. Tuttle, 471
U.S. 808, 824 n.8, 105 S. Ct. 2427, 2436, 85 L. Ed. 2d 791
(1985).
Petitioners complained only that the City of Donna
should be liable because Garza was able to hang himself
after arriving at the Donna Jail, a short term holding
facility, though neither Garza nor any other person
ever indicated he was at risk of suicide. Pet. App. 2, 4-5,
24. Without evidence to establish a causal relationship
between the alleged policy and any specific mistreatment,
that allegation was too nebulous to identify a moving force
that promoted Garza’s suicide or any specific mistreatment
of detainees. Id., at 17. “No reasonable fact finder
could determine that [De Leon] was subjectively and
deliberately indifferent towards a known, substantial risk
[Garza] would commit suicide. Id., at 56.
While Petitioners argued that the City had a policy
of detainee mistreatment, established through the DPD
police chief’s instruction to install two signs that promoted
“vigilante-style policing” and the mistreatment of
detainees, they identified no evidence that Garza suffered
any injury from officers’ vigilante-style actions, such as
might arise in a Fourteenth Amendment excessive force
context. Cf. Kingsley v. Hendrickson, 135 S. Ct. 2466, 192

17
L. Ed. 2d 416 (2015) (considering requirements for pretrial
detainee’s Fourteenth Amendment § 1983 excessive force
claim). Petitioners did not complain of, and there was no
evidence of, any use of force or active hostility towards
Garza. Petitioners did not identify evidence that provigilante signs caused any officials to act as vigilantes.
To the contrary, Petitioners did not complain of or identify
any alleged use of force or mistreatment by any City official.
Pet. App. 72. Petitioners identified “no concrete causal
relationship between [the signs] and Decedent’s death.
… [Their] suggestion that these signs indicate a general
mistreatment of detainees is … insufficient for failure to
specify the exact type of mistreatment supposedly behind
Decedent’s death. Id., at 71-72. “If a person has suffered no
constitutional injury at the hands of the individual police
officer, the fact that the departmental regulations might
have authorized the use of constitutionally excessive force
is quite beside the point.” City of L.A. v. Heller, 475 U.S.
796, 799, 106 S. Ct. 1571, 1573, 89 L. Ed. 2d 806 (1986) (per
curiam) (emphasis in original).

18
CONCLUSION
Petitioners’ characterization of DPD police chief De
Leon’s instruction to install two signs as a custom or policy
of the City to promote “vigilante-style” policing, without
evidence of such an intent or deliberate indifference to
Garza’s Fourteenth Amendment rights in enacting such a
policy, and without evidence that such a policy was the moving
force of injuries caused by “vigilante-style” actions of DPD
officials, could not establish liability of the City under § 1983
for Garza’s suicide. For the foregoing reasons, Respondent
respectfully disagrees with the premises contained within
Petitioner’s petition requesting this Court’s review.
The Court should deny the petition for a writ of
certiorari.
Respectfully submitted,
J. A rnold Aguilar
Counsel of Record
Aguilar & Zabarte, LLC
990 Marine Drive
Brownsville, Texas 78520
(956) 504-1100
arnold@aguilarzabartellc.com
Counsel for Respondent
October 2019

